Case 4:21-cv-04085-RAL Document 23 Filed 08/12/21 Page 1 of 1 PagelD #: 328
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 21-2686
Daniel Jose Gomez
Petitioner - Appellant
v.
Robert Dooley; Attorney General of the State of South Dakota
Respondents - Appellees
Appeal from U.S. District Court for the District of South Dakota - Southern
(4:21-CV-04085-RAL)
JUDGMENT
Before LOKEN, STRAS, and KOBES, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
August 12,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

i X

h

Case 4:21-cv-04085-RAL Document 19 Filed 07/27/21 Page 1 of 2 PagelD #: 319

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
DANIEL JOSE GOMEZ,

4:21-CV-04085-RAL

Petitioner,
vs.
ROBERT DOOLEY, ATTORNEY GENERAL
OF THE STATE OF SOUTH DAKOTA,

ORDER DENYING PETITIONER’S
MOTION FOR CERTIFICATE OF
APPEALABILITY AND GRANTING
PETITIONER’S MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS ON
APPEAL

Respondents.
Petitioner Daniel Jose Gomez filed a petition for writ of habeas corpus under 28 U.S.C.
§ 2254. Doc. 1. This Court granted Respondents’ motion to dismiss for lack of subject matter
jurisdiction because Gomez was not “in custody” when he filed his § 2254 petition. Doc. 15 at 3.
Now, Gomez moves for a certificate of appealability and for leave to proceed in forma pauperis
on appeal. Docs. 17,18.
I.

Motion for Certificate of Appealability
When Gomez filed this petition, he was not in custody of the South Dakota Department

of Corrections. See Docket 15 at 3. “[A] state prisoner seeking a writ of habeas corpus has no
absolute entitlement to appeal a district court’s denial of his petition.” Miller-El v. Cockrell. 537
U.S. 322,335 (2003) (citing 28 U.S.C. § 2253). “Before an appeal maybe entertained, a prisoner
who was denied habeas relief in the district court must first seek and obtain a COA from a circuit
justice or judge.” Id. at 335-36. Such a certificate of appealability may be issued “only if the
applicant has made a substantial showing of the denial of a constitutional right” 28 U.S.C.
§ 2253(c)(2). A “substantial showing” is one that demonstrates “reasonable jurists would find the

CL

Case 4:21-cv-04085-RAL Document 19 Filed 07/27/21 Page 2 of 2 PagelD #; 320

district court’s assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel.
529 U.S. 473,484 (2000). This Court lacks subject matter jurisdiction over Gomez’s petition and
Gomez has failed to make a substantial showing that his constitutional rights were denied. See
Doc. 15 at 3. Thus, a certificate of appealability is not issued. See 28 U.S.C. § 2253(c)(2) (“A
certificate of appealability may issue... only if the applicant has made a substantial showing of
the denial of a constitutional right.”).
II.

Motion for Leave to Proceed In Forma Pauperis on Appeal
Gomez filed a notice of appeal and moves for leave to proceed in forma pauperis on

appeal. Docs. 16,18. The filing-fee provisions of the Prison Litigation Reform Act do not apply
to habeas corpus actions. Malave v. Hedrick. 271 F.3d 1139, 1140 (8th Cir. 2001). To determine
whether a habeas petitioner qualifies for in forma pauperis status, the court need only assess (1)
whether the petitioner can afford to pay the full filing fee, and (2) whether the petitioner’s appeal
is taken in “good faith.” 28 U.S.C. § 1915(a)(1), (3). Gomez’s appeal appears to be taken in good
faith. After review of his financial affidavit, Doc. 18, this court finds that Gomez has insufficient
funds to pay the $505.00 appellate filing fee.
Therefore, it is hereby
ORDERED that Gomez’s motion for certificate of appealability, Doc. 17, is denied. It is
finally
ORDERED that Gomez’s motion for leave to proceed in forma pauperis on appeal. Doc.
18, is granted.
DATED July 37* 2021.
BY THE COURT:
ROBERTOaTlANGE*
CHIEF JUDGE

C,

2

Case 4:21-cv-04085-RAL Document 14 Filed 07/21/21 Page 1 of 3 PagelD #: 285

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
4:21-CV-04085-RAL

DANIEL JOSE GOMEZ,
Petitioner,

OPINION AND ORDER GRANTING
RESPONDENTS’ MOTION TO DISMISS

vs.

ROBERT DOOLEY, ATTORNEY GENERAL
OF THE STATE OF SOUTH DAKOTA,

f

Respondents.
Petitioner Daniel Jose Gomez filed a petition for writ of habeas corpus under 28 U.S.C.
§ 2254. Doc. 1. Respondents’ move to dismiss and Gomez moves to appoint counsel and to
electronically file. Docs. 6, 8,12.
I.

Judicial Notice
First, Respondents ask fins Court to take judicial notice of the judicial rulings in Gomez’s

state criminal case, CRI08-286, and his state habeas case, CIV-09-389. Doc. 9 at 1. Under the
Federal Rules of Evidence Rule 201 a court may take judicial notice of “a fact that is not subject
to reasonable dispute because it... can be accurately and readily determined from sources
whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b)(2). Respondents filed
the judicial opinions and judgments from Gomez’s state record. Ste Doc. 9. “A district court
may properly take judicial notice of items in the public record, such as judicial opinions.”
Thompson v. RJ, Reynolds Tobacco Co., 760 F.3d 913,918 (8th Cir. 2014) (citing Kent v.
United of Omaha Life Ins. Co.. 484 F.3d 988,994 n.2 (8th Cir. 2007)). Because the judicial

1

Case 4:21-cv-04085-RAL Document 14 Filed 07121121 Page 2 of 3 PagelD #: 286

opinions and judgments that Respondents filed are a part of the state public record, this Court
takes judicial notice of these documents and will rely on them for fixe factual background.
n. Factual Background
On September 23, 2008, South Dakota First Judicial Circuit Court Judge Steven. R.
Jensen1 entered judgment against Gomez for one count of Second Degree Escape in violation of
SDCL § 22-11A-2.1. Doc. 9-1 at 3-5. Gomez was sentenced to 180 days with five years
suspended and he was to remain on supervised probation for five years. Mi at 4-5. He was also
given a time served credit for 62 days. Mi Gomez’s judgment was thereafter amended twice. See
Docs. 9-2,9-3.
On June 22,2009, Gomez was found to have violated the terms and conditions of his
probation and his sentence was re-imposed (five years in the South Dakota State Penitentiary,
with three years suspended). Doc. 9-4 at 3-5. On September 29,2009, Gomez filed his state
petition for writ of habeas corpus. Doc. 9-5. His writ was denied by South Dakota First Judicial
Circuit Court Judge Arthur L. Rusch on April 26,2010. Doc. 9-7 at 2. On April 8, 2014, the
South Dakota Department of Corrections (DOC) discharged Gomez from custody. Id. at 3. He
filed his federal habeas petition on May 7,2021 and Respondents’ move to dismiss. Docs. 1,8.
II.

Legal Analysis
Respondents assert that Gomez is not “in custody” for purposes of 28 U.S.C.

§ 2254. Doc. 9 at 5. When a petitioner has completed his/her sentence and has been discharged
I

from parole they are no longer considered “in custody” for purposes of § 2254. Hogan v. Iowa.
952 F.2d 224,225 (8th Cir. 1991). A federal court does not have subject matter jurisdiction
“once the sentence for a conviction has completely expired” because the petitioner does not have

i

He now is Chief Justice of the Supreme Court of South Dakota.
2

Case 4:21-cv-04085-RAL Document 14 Filed 07/21/21 Page 3 of 3 PagelD #: 287

i

a habeas coipus remedy. Id. (quoting Maleng v. Cook. 490 U.S. 488,492 (1989)). Gomez was
discharged from DOC custody on April 8,2014, and at the time he filed his complaint he was not
in custody. Doc. 9-7 at 3. Thus, this Court does not have subject matter jurisdiction over
*
Gomez’s habeas petition.

t

Therefore, it is hereby

I

ORDERED that Respondent’s motion to dismiss, Doc. 8, is granted. It is further
ORDERED that Gomez’s pending motions, Docs. 6,12, are denied as moot.

!

DATED July JlK 2021.
BY THE COURT:
ROBERTO A. LANG!
CHIEF JUDGE

l

r
i

i

5
i

l

/]•/£/>

)( b

3

Additional material
from this filing is
available in the
Clerk's Office.

